<html>
<title> - CRUISE MISSILE AND UAV THREATS TO THE UNITED STATES</title>
<body><pre>[Senate Hearing 107-558]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-558
 
          CRUISE MISSILE AND UAV THREATS TO THE UNITED STATES
=======================================================================



                                HEARING

                               before the


INTERNATIONAL SECURITY, PROLIFERATION AND FEDERAL SERVICES SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION


                               __________

                             JUNE 11, 2002

                               __________

      Printed for the use of the Committee on Governmental Affairs









                           U.S. GOVERNMENT PRINTING OFFICE
80-605                             WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 THAD COCHRAN, Mississippi
THOMAS R. CARPER, Delaware           ROBERT F. BENNETT, Utah
JEAN CARNAHAN, Missouri              JIM BUNNING, Kentucky
MARK DAYTON, Minnesota               PETER G. FITZGERALD, Illinois
           Joyce A. Rechtschaffen, Staff Director and Counsel
              Richard A. Hertling, Minority Staff Director
                     Darla D. Cassell, Chief Clerk

                                 ------                                

INTERNATIONAL SECURITY, PROLIFERATION AND FEDERAL SERVICES SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 THAD COCHRAN, Mississippi
ROBERT G. TORRICELLI, New Jersey     TED STEVENS, Alaska
MAX CLELAND, Georgia                 SUSAN M. COLLINS, Maine
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               PETER G. FITZGERALD, Illinois
                   Richard J. Kessler, Staff Director
                Dennis M. Ward, Minority Staff Director
                      Brian D. Rubens, Chief Clerk
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Cochran..............................................     3

                               WITNESSES
                         Tuesday, June 11, 2002

Vann H. Van Diepen, Acting Deputy Assistant Secretary, Bureau of 
  Nonproliferation, U.S. Department of State.....................     3
Christopher Bolkcom, Analyst in Naitonal Defense, Foreign 
  Affairs, Defense, and Trade Division, Congressional Research 
  Service........................................................    13
Dennis Gormley, Senior Fellow, International Institute for 
  Strategic Studies..............................................    14

                     Alphabetical List of Witnesses

Bolkcom, Christopher:
    Testimony....................................................    13
    Prepared statement...........................................    28
Gormley, Dennis:
    Testimony....................................................    14
    Prepared statement...........................................    59
Van Diepen, Vann H.:
    Testimony....................................................     3
    Prepared statement...........................................    23

                                Appendix

Questions for the Record submitted from Chairman Akaka to:
    Mr. Van Diepen...............................................    69
    Mr. Bolkcom..................................................    73
    Mr. Gormley..................................................    74


          CRUISE MISSILE AND UAV THREATS TO THE UNITED STATES

                              ----------                              


                         TUESDAY, JUNE 11, 2002

                                   U.S. Senate,    
                 International Security, Proliferation,    
                       and Federal Services Subcommittee,  
                  of the Committee on Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka, Cochran, and Stevens.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. The Subcommittee will please come to order. 
Good morning to all, especially our witnesses. I would like to 
thank our witnesses for being with us today to discuss cruise 
missiles and unmanned aerial vehicles, or UAV, and their 
threats to the United States.
    During the early days of Operation Enduring Freedom, United 
States and coalition troops found an American manual on how to 
operate a remotely-controlled unmanned helicopter in an al 
Qaeda safe house in Afghanistan. And just 2 weeks ago, the 
intelligence community issued a terrorist alert to the airline 
industry because of a portable shoulder-launched missile casing 
that was found abandoned outside an airfield in Saudi Arabia. 
While remotely-controlled helicopters and so called ``man-
pads'' are not cruise missiles, they demonstrate the threats we 
face, both at home and abroad, from cheaper and easier-to-use 
and long-ignored alternatives to ballistic missiles.
    During the Subcommittee hearing on the National 
Intelligence Estimate on Foreign Missile Developments, we 
learned that between one and two dozen countries will possess a 
land attack cruise missile capability by the year 2015 through 
indigenous development, acquisition, or modification of other 
systems, such as anti-ship cruise missiles or UAVs.
    In fact, in every hearing I have chaired in the past year 
on weapons of mass destruction proliferation, the subject of 
cruise missiles was raised. For this reason, I believe it is 
necessary to examine the cruise missile threat to America and 
the extent of cruise missile proliferation. I have included 
UAVs both because of the apparent interest by al Qaeda 
terrorists and because an armed UAV technically is a type of 
cruise missile.
    Cruise missiles are any unmanned, self-propelled, and 
guided vehicle whose primary mission is to place a special 
payload on a target. Cruise missiles vary greatly in their 
speed and range and are often an afterthought to ballistic 
missile concerns.
    In many ways, cruise missile proliferation is more 
difficult to tackle than ballistic missiles. They share many 
features with commercial aircraft which have legitimate uses 
and are less expensive to build. These similarities make it 
difficult to inhibit cruise missile proliferation without 
impacting the aircraft industry.
    The Missile Technology Control Regime, or MTCR, was 
established by the United States and our G-7 partners in 1987 
to restrict the proliferation of long-range ballistic and 
cruise missiles and to delegitimize their sale. Currently, 33 
nations belong to the MTCR. However, the MTCR is only as 
effective as the effort member nations put into implementing it 
and ensuring that it is comprehensive in the technology it 
controls.
    During our Subcommittee hearing last week on Russian export 
controls, we learned that Russian officials drafted license 
requests so that cruise missile sales intended for India would 
fall just under the MTCR guidelines. India has the capability 
and history of modifying these missiles to then exceed the 
range and payload limits.
    This practice, which is not limited to Russia, shows that 
unlike ballistic missiles, there is not strong consensus 
between MTCR member states that cruise missiles are 
sufficiently dangerous to warrant tighter controls. There is 
not even agreement on which items or technologies need to be 
controlled.
    The willingness of member states to export cruise missile 
and UAV technology is proof of this. The United States also is 
caught between national security concerns and the profitable 
world of cruise missile and UAV sales.
    The administration has asked the producers of the Predator 
UAV for a new version for export to non-NATO allies. The new 
version would have modifications that would make it impossible 
for the buyer to arm or augment it into a system that would 
violate the MTCR. But do MTCR limitations on cruise missiles 
address our security concerns and are other MTCR members making 
similar efforts in their export of cruise missiles and UAVs? 
That is a question.
    I look forward to discussing these important questions with 
our witnesses and I welcome Vann Van Diepen, Deputy Assistant 
Secretary of State for Nonproliferation, our first panel's sole 
witness. He will discuss the global interest in cruise missiles 
and UAVs, how the MTCR addresses this threat, and what measures 
the administration is pursuing other than the MTCR to stem 
cruise missile proliferation.
    Mr. Van Diepen has returned recently from the April MTCR 
working group meeting in Paris. I hope he will share with us 
the discussions on cruise missiles and whether our MTCR 
partners share our concerns. So I look forward to that.
    I would like to call on my friend and partner here, Senator 
Cochran, for any statement he may have.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much, and 
thank you for convening the hearing. I join you in welcoming 
our witnesses this morning to this hearing and hope that we 
will learn about the nature of the threat to the United States 
and our security interests from unmanned aerial vehicles and 
cruise missiles.
    We have had hearings and have taken steps to try to develop 
legislation to improve our defenses against ballistic missiles. 
The threat seemed to be more clear and present in connection 
with ballistic missiles because up to 35 nation states have the 
capability of using ballistic missiles to threaten our troops 
in the field and Americans around the world, as well as our 
homeland.
    I am advised that up to nine nation states have the 
capability of using land-attack cruise missiles. Unmanned 
aerial vehicles are similar in that they can be converted to 
cruise missiles, as I understand the technology. But we will 
learn more about the details from these witnesses and I am sure 
we will be better positioned in terms of our understanding of 
the nature of the threat to take whatever action the Congress 
deems appropriate to be sure that we are capable of defending 
against these threats as well as ballistic missile threats.
    Thank you for being here, Mr. Van Diepen. I look forward to 
your testimony.
    Senator Akaka. Thank you very much, Senator Cochran.
    Mr. Van Diepen, we welcome you here and welcome any 
statement you may have. You may proceed.

  TESTIMONY OF VANN H. VAN DIEPEN,\1\ ACTING DEPUTY ASSISTANT 
SECRETARY, BUREAU OF NONPROLIFERATION, U.S. DEPARTMENT OF STATE

    Mr. Van Diepen. Thank you, Mr. Chairman and Senator 
Cochran. It is my privilege to testify before you on the 
important subject of the proliferation implications of cruise 
missiles and unmanned air vehicles, or UAVs. These systems 
provide important capabilities to the United States and our 
friends and allies, but in the hands of our adversaries can 
pose substantial threats. I will discuss briefly the threat 
potential of cruise missile and UAV proliferation and then 
describe the steps that the United States and our partners have 
been taking to impede that threat.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Van Diepen appears in the 
Appendix on page 23.
---------------------------------------------------------------------------
    Unmanned air vehicles is the term used in the Missile 
Technology Control Regime, the MTCR, to refer to unmanned 
systems that fly within the atmosphere and are not rocket 
propelled. Different terms may be used in other contexts, but 
for MTCR purposes, this term includes cruise missiles as well 
as target drones, reconnaissance drones, and other forms of 
unmanned air vehicles, be they military or civilian, armed or 
unarmed. UAVs can be as large as a jetliner or as small as a 
model airplane.
    UAVs have been in military service since at least the use 
of the V-1 cruise missile in World War II. Since then, their 
use has grown dramatically in land attack, reconnaissance, as 
targets, and even in some civilian applications, such as crop 
dusting. As UAVs become more capable, they are taking on more 
missions that had exclusively been borne by manned aircraft.
    The same attributes that make UAVs so useful for the U.S. 
military make UAVs threatening in the hands of our adversaries. 
UAVs are potential delivery systems for weapons of mass 
destruction and they are ideally suited for delivering chemical 
and biological weapons. As you have noted in your statement, 
Mr. Chairman, there is a potential for terrorist groups to 
produce or acquire UAVs.
    U.S. efforts to impede threats stemming from the 
proliferation of UAVs and UAV technology encompass a broad 
spectrum of measures. As in the other nonproliferation areas, 
the U.S. attempts to aggressively use all the following tools 
that I will briefly describe to affect various aspects of the 
UAV proliferation threat.
    First, norms such as the Nuclear Nonproliferation Treaty, 
the Biological Weapons Convention, the Chemical Weapons 
Convention, and the MTCR guidelines help dissuade new countries 
from getting into the WMD delivery business, including via 
UAVs. They impede and delegitimize WMD proliferation and the 
proliferation of UAVs for WMD delivery. And, these norms help 
support our other nonproliferation measures.
    Export controls, both national and multilateral, help deny 
proliferators access to technologies that might be misused to 
develop WMD delivery systems and they help slow down adversary 
UAV programs, make those programs more costly and less 
effective and less reliable than would otherwise be the case.
    The key export control instrument is the Missile Technology 
Control Regime, which from its beginning in 1987 subjected 
exports of unmanned air vehicles inherently capable of 
delivering a payload of at least 500 kilograms to a range of at 
least 300 kilometers, so-called Category I UAVs or MTCR-class 
UAVs, and their directly associated technology to an 
unconditional strong presumption of denial. Exports of the 
specially designed production facilities for Category I UAVs 
are prohibited.
    Key components and materials usable in producing MTCR-class 
UAVs, as well as many UAVs not captured under Category I, are 
controlled under the MTCR as so-called Category II items, the 
export of which are reviewed on a case-by-case basis against 
specified nonproliferation criteria.
    In addition to MTCR controls, military UAVs, their 
components, and a wide range of materials and equipment useful 
in producing military UAVs are controlled under the so-called 
Wassenaar Arrangement, the nonproliferation regime for 
conventional arms and associated dual-use items.
    Now, there are a large number of items relevant to the 
production of UAVs that are not controlled under either the 
MTCR or Wassenaar, mostly because of their broad civil uses. On 
a national basis, the United States and most of the other 
members of the nonproliferation regimes have enacted so-called 
``catch-all'' controls that give them a legal basis to control 
exports of these unlisted items when they are intended for use 
in WMD delivery.
    Related to the export control tool are the very extensive 
export control assistance programs that the United States has 
to help other countries to enact and enforce export controls 
that are compatible with those of the MTCR and the Wassenaar 
Arrangement.
    Now, in addition to its export control role, the MTCR also 
serves as a forum where member countries can share information 
and concerns and coordinate their national missile 
nonproliferation efforts, and over the past several years, UAVs 
have taken on an increasing prominence in the discussions of 
the MTCR.
    Another tool we use is interdiction. The United States has 
a longstanding program of identifying potential exports of 
proliferation concern and working with other countries to 
investigate and, if warranted, stop such exports.
    Another tool are sanctions. A variety of U.S. domestic laws 
require sanctions against foreign governments or entities 
involved in certain activities, including proliferation 
activities related to UAVs. The threat of sanctions can act as 
a deterrent to proliferation activity, and in some cases, the 
diplomacy surrounding sanctions or sanctions waivers can result 
in positive nonproliferation progress.
    Another important tool is our military efforts, which, of 
course, go beyond my scope as a State Department person. 
Nonetheless, our efforts to try to defend against adversary 
UAVs, to defend against the WMD they might deliver, as well as 
to be able, if necessary, to destroy adversary UAV holdings or 
to retaliate against the use against us by adversaries of UAVs 
or WMD delivered by UAVs all help to deter the use of UAVs 
against us and our friends and help to make the UAVs a less 
attractive option for our adversaries to pursue.
    Good intelligence is central to nonproliferation, and this 
is a very important nonproliferation tool. The U.S. 
intelligence community has done a very good job in building 
awareness of the UAV threat, in supporting U.S. 
nonproliferation efforts, in facilitating interdictions, and in 
assisting other countries' enforcement of their export 
controls.
    Finally, all the tools that I have mentioned are enabled by 
active U.S. diplomacy, and not only is diplomacy a tool that 
enables the others, there are times where we can use diplomacy 
directly, independent of the other tools, to promote good 
behavior and dissuade irresponsible behavior.
    Energetic U.S. use of all these tools and intensive 
cooperation with our friends and allies have had a positive 
impact in impeding the UAV proliferation threat. Adversaries' 
efforts to acquire UAVs have been complicated and made more 
time consuming and expensive. To the extent that they have been 
able to acquire UAVs, our adversaries have had to settle for 
systems that are less effective and less reliable than if our 
nonproliferation efforts had not existed.
    In conclusion, Mr. Chairman, just as UAVs provide real 
opportunities for U.S. and allied militaries, they also provide 
opportunities for our adversaries to threaten us. Dealing with 
the UAV threat has been a part of U.S. nonproliferation efforts 
for over 15 years and we have been strengthening our ability to 
impede and cope with it, including by broadening MTCR export 
controls, adding catch-all controls, and improving our military 
and intelligence capabilities. But we will need to keep working 
hard to keep pace with the threat, not only because our 
adversaries are determined, but because the increasing reliance 
on UAVs worldwide and the dual-use nature of much UAV 
technology will make our job more difficult in the future. 
Thank you.
    Senator Akaka. Thank you very much, Mr. Van Diepen.
    Senator Akaka. I would like to ask Senator Stevens if you 
have any comments.
    Senator Stevens. I am sorry to be late and I have no 
opening statement. Thank you very much.
    Senator Akaka. Thank you very much for being with us.
    Mr. Van Diepen, we are certainly interested in the meeting 
you had in July 2000 with MTCR members. We understand that you 
were there to discuss ways of reducing ambiguities over limits 
on cruise missile technologies and also to forge a consensus 
over how the regime's provisions apply to cruise missile 
transfers. My question is, when will the MTCR announce new 
guidelines for cruise missile technologies?
    Mr. Van Diepen. Thank you, Senator. I do not think that 
that is exactly corresponding to what is going on in the 
regime. First of all, as I indicated in my statement, the basic 
controls on cruise missiles themselves have been in place in 
the regime since 1987 and additional cruise missiles were added 
to Category II controls in 1994. A number of key items useful 
in making cruise missiles, certain types of turbo-jet and 
turbo-fan engines, certain Global Positioning System receivers, 
guidance systems, composite materials, and so on have been 
subject to MTCR control from the very beginning.
    What has been going on in the regime over the past few 
years as part of the overall effort of reviewing the entire 
MTCR annex, the list of equipment and technologies that the 
regime controls, to make sure they are up to date, to make sure 
that any loopholes are closed, to expand the list where it is 
warranted. Part of that has been to look at that effort with 
the cruise missile threat, the UAV threat, and the associated 
threat of CBW delivery, for which UAVs are especially 
interesting, in mind.
    And so, for example, we are refining the controls on the 
turbo-jet and turbo-fan engines that are the primary propulsion 
means for cruise missiles to make sure that they are adequate. 
We are trying to expand the universe of the Global Positioning 
System receivers that are of the highest threat potential for 
use in cruise missiles. We are trying to refine the definitions 
of range and payload as used in the MTCR, not just for UAV 
purposes but for ballistic missile purposes, as well.
    So there is an ongoing effort underway to refine the 
controls to try and make sure they are as effective as 
possible. Part of that is a cruise missile focused effort, but 
it is a broader effort, as well, and as these individual 
decisions are taken, they are announced when they are taken and 
they get reflected in the United States in changes to usually 
the Commerce Control list that are published in the Federal 
Register.
    Senator Akaka. When do you think these changes will be 
announced?
    Mr. Van Diepen. I think these sort of dribble and drabble 
out as consensus is reached, and with a 33-nation regime, 
sometimes reaching consensus can be a challenge. I would guess 
that we will probably have some of those items agreed at the 
next MTCR plenary, which will be at the end of September in 
Warsaw.
    Senator Akaka. Talking about payloads, let us go back to 
1993. In 1993, the MTCR members were directed to assess whether 
recipient states could modify missiles to meet longer range and 
larger payload limits before permitting missile exports. This 
change is especially important for cruise missiles because they 
can be easily altered.
    The question is, how do member states judge whether a 
potential recipient has the capability and intent to modify a 
missile, and has this change resulted in an increase or 
decrease in the number of export licenses by MTCR states?
    Mr. Van Diepen. Well, first of all, the 1993 decision 
basically made explicit what had been implicit in the MTCR from 
the beginning, the idea that in judging the capability of a 
system to exceed the Category I range/payload parameters, 300 
kilometers, 500 kilograms, that one has to apply what we like 
to call in the United States the inherent capability principle, 
that one needs to look at the inherent technical capability of 
the system to exceed a range of 300 kilometers with a 500 
kilogram payload regardless of whether the system is actually 
deployed in that configuration, regardless of whether it is 
advertised to meet those parameters, so on and so forth. Part 
of that is taking into account the so-called trade-off 
principle, the ability to trade off range and payload. Part of 
it, as you know, is to take into account the potential for the 
item to be modified.
    As with all decisions in the MTCR, as noted in the MTCR 
guidelines themselves, it is ultimately the sovereign national 
decision of the exporting country and so it is a national 
responsibility of each MTCR partner to implement these various 
provisions. For our part, we subject applications to export 
UAVs to very intensive technical analysis, usually working with 
the companies involved to make sure we understand the 
configuration of the system, just what its inherent capability 
it is, how modifiable we believe it to be, and we combine that 
with the judgments of the intelligence community in terms of 
what the intentions and capabilities of the recipient might be 
in terms of modification.
    Overall, it is certainly my impression that the regime 
partners have been very responsible in their exports, certainly 
of Category I items, and I think the adding of smaller Category 
II UAVs to control starting in 1994 has had a positive impact 
on the responsible nature of the decisions, as well. I am not 
in a position to know whether the number of approvals has gone 
up or down as a result of the 1993 and 1994 decisions, but it 
is my sense that, by and large, the regime members have been 
acting responsibly.
    Senator Akaka. Before I defer to Senator Cochran, in 1994, 
the Defense Science Board stated that it will be very difficult 
for the intelligence community to provide timely estimates of 
cruise missile and UAV threats. What has been done since 1994 
to rectify this intelligence gap? Why is there not a consensus 
among our allies and MTCR partners that cruise missile exports 
need tighter controls?
    Mr. Van Diepen. Senator, I am not sure I am in a good 
position to address what the intelligence community has been 
doing, and frankly, would not know what would be appropriate to 
say in an unclassified forum on that subject.
    I would note, though, as I said in my statement, at least 
internally, we believe the intelligence community has done a 
good job of raising our awareness of the threat and helping us 
come up with proposals in the MTCR for dealing better with that 
threat. We have made a number of presentations over the years 
in the so-called information exchange portion of MTCR plenaries 
on the cruise missile threat to do our part to raise the 
awareness of other countries of the issue.
    I guess I do not agree with the concept that there is not a 
shared understanding or shared appreciation of the cruise 
missile threat in the MTCR. Now, obviously, different countries 
have different national policies in terms of their own exports 
of cruise missiles, just as they do with their own exports of 
arms more generally. But I think that is different than saying 
that somehow shows that the countries have a different 
appreciation of the generic threat that is posed by cruise 
missiles.
    Senator Akaka. Thank you very much. Senator Cochran.
    Senator Cochran. Thank you, Mr. Chairman.
    How would you assess the effectiveness of our export 
controls in helping to reduce the amount of proliferation from 
missile technology, whether we are talking about ballistic 
missile or cruise missile technology?
    Mr. Van Diepen. Well, first of all, in terms of the United 
States, I think our export controls, both the multilateral MTCR 
controls and our national controls, like our catch-all 
controls, have been substantially effective in more or less 
walling the United States off as a source of controlled 
technology for use in cruise missile programs.
    Now, obviously, there are other sources of technology, 
including sources in places like China that are not members of 
the MTCR, and so our national controls have a limited utility 
in dealing with that avenue. But the most technology, the best 
technology is in the United States, is in Western Europe, is in 
Japan, and the MTCR export controls have gone a long way toward 
making it very difficult for proliferators to get technology 
from those places, and so they have had to resort to very 
intricate, expensive, time-consuming covert acquisition. They 
have had to settle for the kinds of technology they can get 
from places like North Korea and China.
    So while we have not stopped the proliferation problem, 
what we have done is impeded those programs, make them cost 
more, make them take longer, and make the missiles that these 
guys are able to ultimately come up with less threatening than 
would be the case if we were not applying these 
nonproliferation measures.
    Senator Cochran. There has been a good deal of effort by 
our administration in conversations with the Russians and the 
Chinese to try to get a higher degree of cooperation in this 
proliferation reduction area, specifically with ballistic 
missile parts and technologies and the like. Have we extended 
that to the cruise missile area with respect to China and 
Russia? Have we tried to use the same kind of influence in 
keeping down their exporting and transferring technologies and 
components?
    Mr. Van Diepen. I guess a fair answer is yes and no, in a 
sense that much of our dialogue with both of those countries is 
more generic. It is not focused on ballistic missile versus 
cruise missile proliferation. It is focused on missile 
proliferation, on meeting MTCR requirements, which covers both 
ballistic and cruise. But there has been relatively little 
direct engagement on the question of cruise, I think in part 
because we see it as subsumed in this larger question.
    Senator Cochran. Why have more nations not elected to 
develop or obtain cruise missiles? When we note the comparison 
between the 9 nations that are said to have cruise missile 
capabilities and 35 nations that have ballistic missile 
capabilities, why the big disparity there, do you think?
    Mr. Van Diepen. By definition, any answer has to be 
speculative. I would like to say it was because of our 
nonproliferation efforts, but I am not sure that that is a fair 
answer. I think it is probably a combination of things.
    I think a number of countries' military objectives are such 
that the fast flight time and assured arrival, difficulty of 
interception of ballistic missiles is attractive to them in 
meeting those objectives. I think a number of countries see as 
both a political threat and an item of political prestige big 
ballistic missiles that they can parade around, and cruise 
missiles do not necessarily meet that bill.
    I think that, for some, what is most readily available on 
the open market are North Korean Scud-based missiles. They are 
available, they are relatively inexpensive, they are proven, 
and so to a certain extent, it is because this is what is 
readily available on the market. So I think it is probably a 
combination of those things.
    Now, as the Chairman noted in his statement, our 
expectation is that, over time, more and more countries will 
probably be interested in acquiring some sort of land attack 
cruise missile or land attack UAV capability, but I think many 
countries can meet a lot of their objectives in pursuing WMD 
programs in the first place by using the tried and true and 
relatively available ballistic missile.
    Senator Cochran. Can you tell us in this open hearing 
whether you know of any countries that are developing an 
intercontinental capability with cruise missiles that could 
attack the United States?
    Mr. Van Diepen. A literal intercontinental capability in 
terms of a cruise missile with a range sufficient to reach the 
United States from Eurasia, I would be surprised if anybody was 
working that direction right now.
    There are a number of countries that are working on what we 
call long-range cruise missiles, missiles with a range of 1,000 
or 2,000 kilometers, and to reach the United States with 
missiles like that, one would have to have some sort of forward 
delivery platform, whether it was concealing them on a merchant 
ship, concealing them in an aircraft, something like that. But, 
of course, even these shorter-range missiles pose a direct 
threat to our forward-deployed forces in places like the Middle 
East and to our friends and allies abroad.
    Senator Cochran. Are we fully capable of defending against 
those attacks now in the case of deployed troops?
    Mr. Van Diepen. I am probably not the best one to answer 
that question. I mean, certainly, we have air defenses of 
various sorts that would have some degree of utility against 
incoming cruise missiles, but I should probably not answer that 
question definitively.
    Senator Cochran. Is this the same kind of threat that we 
saw used in the war between Argentina and Great Britain when 
the Exocet missile struck a British ship?
    Mr. Van Diepen. That is certainly one aspect of it. The 
most widely deployed cruise missiles right now are, in fact, 
not land attack missiles but anti-ship missiles, and a lot of 
the attributes that make those missiles interesting as anti-
ship missiles also make them potentially interesting as land 
attack means.
    They are relatively small. They are hard to detect. They 
are hard to shoot down. They can be very accurate, accurate 
enough to hit a ship. With the appropriate other type of 
guidance system, they could be very accurate against specific 
land targets. That could begin to make it more feasible to use 
these things in militarily effective ways with conventional 
payloads.
    Right now, with the ballistic missiles that are out there, 
most of them pretty much--all that they are good for, the ones 
in the hands of proliferating countries, are delivery with WMD, 
and while that is obviously a major threat, if a proliferant 
also had a capability to hit what he was shooting at with 
conventional ordinance, that would expand the types of threats 
that our forces would face and land attack cruise missiles 
offer that potential.
    Senator Cochran. Your testimony has been quite helpful and 
interesting and we appreciate very much your being here today 
and helping us understand this threat.
    Senator Akaka. Thank you very much.
    You said that Predator exports would be fixed so that it 
cannot be armed. If that is so, how do you do that?
    Mr. Van Diepen. I think it probably would not be 
appropriate for me to comment on any specific type of American 
UAV system because I do not want to get into any sort of 
commercial confidentiality or proprietary information issues, 
but as a general matter, you would look at the aerodynamics of 
the system, its internal configuration, the center of gravity, 
and you would look at are there ways of mounting additional 
weight, for example, under the wings and could you find ways of 
making that more difficult to do.
    Not having hard points already installed on the wings of 
the cruise missile, for example, would make it more difficult 
to put weapons underneath. If you knew that putting additional 
weight on those places would disrupt the center of gravity of 
the missile and make it more difficult to fly, you would have 
some confidence that it could not be armed in that way. Finding 
various ways of sealing in or having a tamper-evident 
capability on the removal of the non-weapons payload that the 
missile or the UAV was issued.
    So there are a number of techniques that one could use, but 
it is highly dependent on the specific design of the specific 
UAV and you really have to look at these things in detail, case 
by case.
    Senator Akaka. In your testimony, you mentioned delivery 
services. You think that UAVs are ideally suited for the 
delivery of chemical and biological weapons. Nations exporting 
UAVs and cruise missiles capable of carrying smaller payloads, 
such as a biological or chemical weapon, are limited by the 
MTCR if the system's intended use is to carry weapons of mass 
destruction.
    Has the United States been asked by exporting nations to 
provide assistance either through intelligence or through 
guidance to determine the intent of potential UAV buyers?
    Mr. Van Diepen. Not in as direct a way as your question 
implies. When we agreed in the MTCR back in 1993-1994 to put 
these new controls on, part of the package is that there is an 
agreement to have enhanced information sharing to help other 
members apply these various controls.
    And so for our part, since that time, we have been 
providing enhanced information on the identity and status of 
the WMD programs in countries that are also interested in 
acquiring missiles and UAVs so that, for example, licensing 
officers in another MTCR country can have that kind of 
crosswalk. They can know that this country or this end user is 
also involved in WMD and so they can make that link-up between 
the potential risk that the UAV in question would be diverted 
for WMDs.
    Then in addition, most of the countries that are in the 
MTCR are also members of the Australia Group, the chemical-
biological regime, and the Nuclear Suppliers Group, and so they 
have access there to information on the WMD side of the WMD-UAV 
interrelationship.
    Senator Akaka. There have been concerns expressed about UAV 
exports. The administration has proposed expanding UAV exports 
to non-NATO allies on a case-by-case basis. Does the 
administration think we need looser restrictions on UAV 
exports?
    Mr. Van Diepen. Certainly not at this time, Senator. What 
we have done, and I cannot get into the details because they 
are classified, but the MTCR guidelines make clear that exports 
of Category I items are subject to a strong presumption of 
denial. As is clear in the guidelines themselves, that means 
that such items theoretically can be sold, but only on rare 
occasions, and that is the language used in the guidelines, 
rare occasions that are particularly well justified in terms of 
five specific nonproliferation and export control factors.
    What the Executive Branch has done is come up with an 
internal definition of what would warrant being a rare occasion 
under which a Category I UAV could be sold, at least for the 
MTCR part of the equation. Now, assuming a decision was made 
that it was possible in a particular case to overcome the 
strong presumption of denial, at that point, the export would 
be handled just like any other arms export and all the myriad 
considerations that would go into whether or not ultimately to 
make that export would pertain.
    So this is really coming up with an agreed way of answering 
that very first question that one has to answer in the case of 
a Category I UAV. Is it or is it not going to be able to 
overcome the strong presumption of denial? We now have an 
agreed internal definition as to when the answer to that 
question is yes. Now, when the answer to that question is yes, 
that does not mean, OK, it is rolling out the door. That means 
at that point, then, it is subject to all the other 
considerations that any arms sale is subject to in ultimately 
determining whether or not it will take place.
    Senator Akaka. Before I defer to Senator Cochran for any 
second round questions, as you know, Mr. Van Diepen, cruise 
missiles can be easily modified to expand their range or 
payload. Beyond MTCR limits, the resale of cruise missiles is 
not well regulated. These are serious problems. Could these 
issues be addressed through an inspection regime? How does the 
United States verify that our missile exports are not resold 
after delivery or modified to violate the MTCR?
    Mr. Van Diepen. Well, first of all, the extent to which a 
missile that is below the Category I threshold could be 
modified to exceed the Category I threshold again depends very 
much on the nature of the missile in question. Some have that 
potential. Others clearly do not, and so it would be a case-by-
case situation.
    Because these are munitions, their sales would be subject 
to all the standard conditions of any munitions sale, including 
a commitment from the recipient government that the item not be 
re-transferred without U.S. permission. In addition, we have 
the so-called Blue Lantern program, where there are periodic 
checks made, both on a random basis and on a targeted basis 
determined by intelligence, to actually go from time to time to 
places and look at the items in question and make sure that 
they are where they are supposed to be and see what is 
happening with them.
    Usually also, if it is a U.S. munition that is being 
provided, there is almost always some degree of spare parts 
support or servicing or other activities that would go on and 
those activities would provide a source of information, again, 
as to whether or not the item is where it is supposed to be and 
whether or not someone has played around with the item.
    Senator Akaka. Senator Cochran.
    Senator Cochran. Mr. Chairman, I have no other questions. I 
appreciate very much your help to us in this hearing.
    Mr. Van Diepen. Thank you.
    Senator Akaka. Thank you very much, Mr. Van Diepen, for 
your testimony and for your time this morning. The Members of 
the Subcommittee may submit questions in writing for you and we 
would appreciate a timely response to any of those questions.
    We will now proceed to the second panel, so thank you very 
much again.
    Mr. Van Diepen. Thank you.
    Senator Akaka. I would like to call Christopher Bolkcom and 
Dennis Gormley to take their places at the witness table. Mr. 
Bolkcom is an analyst in the Defense and Trade Division of the 
Congressional Research Service. Mr. Gormley is President of 
Blue Ridge Consulting and a senior fellow at the International 
Institute for Strategic Studies in London.
    You have been asked to discuss the features that make 
cruise missiles and UAVs attractive weapons for nations of 
concern or terrorist groups, how aggressively they are pursuing 
cruise missiles, the threat these systems pose to the United 
States, and how well the MTCR is addressing cruise missile 
proliferation concerns. Your full testimony will be submitted 
into the record and I look forward to hearing your statements.
    Mr. Bolkcom, you may give your statement now.

   TESTIMONY OF CHRISTOPHER BOLKCOM,\1\ ANALYST IN NATIONAL 
    DEFENSE, FOREIGN AFFAIRS, DEFENSE, AND TRADE DIVISION, 
                 CONGRESSIONAL RESEARCH SERVICE

    Mr. Bolkcom. Thank you, Senator. Mr. Chairman, Senator 
Cochran, thank you for inviting me to speak today about cruise 
missile proliferation. I have submitted my testimony, as you 
mentioned, and I would like to take a moment just to emphasize 
three key points that you will find in that testimony.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bolkcom appears in the Appendix 
on page 28.
---------------------------------------------------------------------------
    First, I would like to make a few observations about 
today's cruise missile threat. Over 80 countries today own 
cruise missiles of some kind and 18 of these countries 
manufacture cruise missiles domestically. The most advanced 
cruise missiles, those with the longest ranges, the heaviest 
payloads, the highest degrees of accuracy, stealthy features, 
these tend to be in the hands of our allies and friendly 
countries.
    Our adversaries, countries like Iran, Iraq, Libya--these 
countries tend to operate anti-ship cruise missiles, although 
they are fielding and developing land attack cruise missiles, 
as well. These tend to be of theater range, tens to hundreds of 
miles, typically armed with conventional high-explosive 
warheads and capable of attacking known and fixed targets, such 
as ports, airfields, and cities.
    Today's cruise missiles appear to be most threatening to 
our allies and friendly countries and to forward deployed U.S. 
military forces, especially the Navy, which must deal with the 
threat of sea skimming anti-ship cruise missiles.
    A cruise missile attack on the continental United States 
today, however, is technically possible. The intelligence 
community has testified, however, that they do not believe such 
an attack is likely. They argue that terrorists do not need 
cruise missiles because they already have access to a variety 
of weapons and methods that they find very effective, such as 
truck bombs, letter bombs, suicide bombers, hijacking airplanes 
and cruise ships, and using firearms to kill people. Yet, it 
cannot be ignored that cruise missiles do have many attributes 
that could make them attractive to terrorists who may acquire 
them and use them in ways that we currently cannot foresee.
    My second point is that a key aspect of cruise missile 
proliferation is that it is highly unpredictable and the 
current threat could change very rapidly. Cruise missile 
threats can emerge quickly because manufacturers do not have to 
start from scratch. Instead, manufacturers can exploit existing 
platforms. Manned aircraft have been turned into cruise 
missiles. UAVs, or unmanned aerial vehicles, have been turned 
into cruise missiles. And anti-ship cruise missiles have been 
modified to attack targets on the land.
    As I mentioned a moment ago, of the 80 cruise missile 
countries today, 18 of them manufactured their own 
domestically. However, 22 other of these countries appear to 
have the industrial and technological infrastructures that are 
required to make cruise missiles if these countries decided to 
pursue those sort of programs. The status of these threshold 
manufacturers could have a significant effect on the global 
supply, demand, and inventory of cruise missiles.
    As Senator Akaka mentioned a moment ago, the Defense 
Science Board, which is DOD's premier body of technical 
advisors, has pointed out and recognized the inherent 
unpredictability of cruise missile proliferation. As Senator 
Cochran mentioned, they have written that the cruise missile 
threat can be expected to evolve both in function and severity. 
The threat could evolve rapidly and it would be very difficult 
for the intelligence community to provide timely estimates of 
cruise missile threats.
    So why is the proliferation of cruise missiles so difficult 
to monitor and predict? Well, the answer lies in my third and 
final point, and that is that most cruise missile technologies 
are inherently dual use. Most cruise missiles exploit well 
understood and well established technologies that are found 
throughout the civil aviation industrial base. Missile 
airframes, navigation systems, jet engines, satellite maps, 
mission planning, computers and software all can be found on 
the commercial market. Thus, identifying a military program can 
be difficult because the technology hides in plain sight.
    Also, the commercial nature of cruise missile technologies 
keeps the costs of these weapons systems low and makes them 
accessible to a wide range of nations and potentially non-state 
actors.
    The commercial availability of cruise missile technologies 
may be the biggest obstacle to controlling the spread of these 
systems through export controls alone. Many argue that there is 
currently a civil aviation loophole in the Missile Technology 
Control Regime that allows technologies applicable to cruise 
missiles to slip through that agreement.
    Also, industry groups remind us that the legitimate export 
of military and civil aviation products is big business and 
these industry groups are arguing for the liberalization and 
streamlining of export controls, not for stricter rules.
    So recognizing these challenges and in conclusion, I would 
like to point out that successfully dealing with cruise missile 
proliferation will likely require a multi-faceted strategy. 
Such a strategy could include steps such as attempting to 
reduce the supply of cruise missiles by negotiating more robust 
export controls, attempting to reduce the demand of cruise 
missiles with disincentives to potential importers, and 
improving our military capabilities, such as improving our 
theater air defenses and potentially continental United States 
air defenses and our counterforce targeting capabilities.
    So, Mr. Chairman, Senator Cochran, this concludes my verbal 
testimony. I look forward to any questions you may have.
    Senator Akaka. Thank you very much. Mr. Gormley, you may 
proceed with your testimony.

 TESTIMONY OF DENNIS GORMLEY,\1\ SENIOR FELLOW, INTERNATIONAL 
                INSTITUTE FOR STRATEGIC STUDIES

    Mr. Gormley. Thank you, Mr. Chairman. Mr. Chairman, Senator 
Cochran, it is a pleasure to appear before you once again, this 
time to offer my suggestions on ways to deal with the emerging 
threat of cruise missiles and unmanned aerial vehicles as they 
could affect U.S. interests abroad as well as at home.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gormley appears in the Appendix 
on page 59.
---------------------------------------------------------------------------
    This issue has only just begun to emerge and attract the 
kind of scrutiny it so desperately deserves. In part, this is 
because the terrible events of September 11 have reminded us of 
the dangers of focusing obsessively on a narrow range of 
familiar threats at the expense of perhaps more likely ones.
    Land attack cruise missiles and UAVs have yet to spread 
widely. However, CIA Director Tenet has testified that by 2010, 
land attack cruise missiles could pose a serious threat not 
only to deployed forces, but possibly also to the U.S. 
homeland. As America successfully pursues effective theater and 
national ballistic missile defenses, nations and terrorist 
groups will be even more strongly motivated to pursue cruise 
missiles. For example, the low cost of small airplanes modified 
to become autonomous vehicles, and other propeller-driven and 
UAVs make the cost-per-kill arithmetic for missile defenses 
generally very stark. Simply put, large numbers of low-cost 
cruise missiles could overwhelm the best of defenses.
    The emergence of the cruise missile threat confronts 
American military forces with enormous challenges. Some 
existing air defenses have substantial capability against large 
land attack cruise missiles flying relatively high flight 
profiles. But once cruise missiles fly low, or worse, add 
stealth features or employ countermeasures, severe difficulties 
arise. Indeed, even defending against easily observable cruise 
missiles flying relatively high is challenging and that is 
because air defenses could mistake them for friendly aircraft 
returning to their air bases and shoot them inadvertently down.
    Large numbers of weapons-carrying UAVs or converted kit 
airplanes flying at very low speeds also threaten current air 
defenses which were designed to detect high performance and 
fast flying Soviet aircraft. Sophisticated look-down radars 
eliminate slow moving targets on or near the ground in order to 
prevent their data processing and display systems from being 
overly taxed. Thus, propeller-driven UAVs flying at speeds 
under 80 knots would be ignored as potential targets.
    Cruise missiles are also attractive alternatives for states 
or terrorist groups lacking the resources or technical skills 
to build or deploy intercontinental ballistic missiles. Various 
national intelligence estimates have drawn attention to the 
conversion potential and use on a commercial container ship, of 
which there are thousands in the international fleet, as a 
launch platform. Such a ship-launched cruise missile could be 
positioned just outside territorial waters to strike virtually 
any important capital or large industrial area, and this could 
occur anywhere around the globe.
    While the latest NIE draws attention to this among several 
attack options, equally worrisome, in my view, is the 
conversion of small manned airplanes into weapons carrying, 
autonomously flown attack vehicles. Terrorists' use of large 
commercial airliners on September 11 came as a complete shock 
to American planners. While small aircraft cannot begin to 
approach the carrying capacity of a jumbo jet's 60 tons of 
fuel, the mere fact that gasoline when mixed with air releases 
15 times as much energy as an equal weight of TNT suggests that 
small aircraft can do significant damage to certain civilian 
and industrial targets. Such an autonomous delivery system in 
the hands of a domestic terrorist threat means that launches 
could take place from hidden locations in close proximity to 
their intended targets.
    What should one make of the effect of nonproliferation 
policy in stopping or slowing the evolution of the cruise 
missile threat? The existing MTCR provisions are surely in need 
of revision to cope more effectively with cruise missiles and 
UAVs. The regime's provisions have simply not kept pace with 
the rapid expansion in commercially available technology 
facilitated by today's globalized economy. The matter of small 
aerospace companies being formed to provide fully integrated 
flight management systems to enable the transformation of 
manned aircraft into entirely autonomous UAVs is only the most 
egregious example.
    I outlined five specific reforms in my prepared statement 
for my February 12 appearance before you. None of these is 
conceivable without a determined U.S. effort to work closely 
with the founding G-7 partners of the Missile Technology 
Control Regime. This core group must convince the broad MTCR 
membership of the necessity of enhanced controls.
    During the Cold War, arms control and military deployments 
played complementary roles in maintaining nuclear stability. 
Today, the two policy domains still have mutually reinforcing 
roles to play. Absent amending of the MTCR, cruise missile 
threats are certain to spread and inevitably make missile 
defenses more expensive and problematic. But if the MTCR can 
become as effective in limiting the spread of cruise missiles 
as it has with more advanced ballistic missiles, missile 
defenses can conceivably keep pace with evolutionary 
improvements in both missile categories. This will not happen 
without the committed leadership of both the Congress and the 
Executive Branches. Thank you.
    Senator Akaka. Thank you very much, Mr. Gormley.
    We have some questions for both of you. Mr. Bolkcom, first, 
let me thank you for the map you provided in your testimony of 
estimated global cruise missile capabilities around the world. 
Thank you for that. Your map separates countries into 
indigenous manufacturers, threshold manufacturers, and 
operators. What separates an indigenous capability from a 
threshold manufacturer? Is it critical technology, 
infrastructure, training, money, or something else?
    Mr. Bolkcom. Thank you, Senator. That is a very good 
question. If you look at the 18 countries today who are 
manufacturers, their technological and industrial 
infrastructures are not that different than many of the 
threshold manufacturers, which is exactly my point. The 
technology, the capabilities, the knowledge required to 
manufacture cruise missiles are spread throughout the globe, 
frankly, and I believe the main difference between being a 
manufacturer and a threshold manufacturer is desire.
    I think that many of the threshold manufacturers could 
manufacture cruise missiles quite soon, today, perhaps. In 
fact, Argentina is one example, but for various reasons, as Mr. 
Van Diepen said, their efforts may have been focused elsewhere. 
But I think it is simply a matter of desire and focus.
    Senator Akaka. Mr. Gormley, as indicated in your testimony, 
the draft International Code of Conduct on Ballistic Missiles 
does not include cruise missiles. How could the draft document 
be amended to include cruise missiles? For example, would it be 
useful for member states to declare their cruise missile and 
UAV stockpiles?
    Mr. Gormley. Senator, I think, first of all, the absence of 
cruise missiles from the draft Code of Conduct just simply 
reinforces the lack of consensus with respect to what the most 
worrisome threats are, in my view. To amend the existing Code 
of Conduct, and that would assume on my part that I agree that 
it is an important document to establish norms, which I think 
is another question, but assuming that it was worthwhile to 
pursue this Code of Conduct, the addition of cruise missiles 
and UAVs would be a simple language change.
    In fact, I was at an International Missile Conference in 
Southampton, England, 2\1/2\ weeks ago in which many of the 
non-U.S. MTCR members were present and this issue of addressing 
the cruise missile and UAV issue in the Ballistic Missile Code 
of Conduct came up. The general approach is to encourage not 
only MTCR member states who are part of the roughly 80 nations 
who attended the meeting in Paris, but all participating 
states, to submit suggested changes to the Code of Conduct. So 
that it seems to me appropriate for at least several of those 
states to include recommended changes in the language to 
address cruise missiles.
    In my view, this will not happen for reasons that I simply 
cannot really come to grips with. But it strikes me that the 
focus is on ballistic missiles. There has been an intentional 
decision not to include language addressing cruise missiles and 
UAVs and I am not aware of what state or states what might be 
behind the effort not to include that language in the Code of 
Conduct, but I think it is shameful.
    Senator Akaka. This question is for both of you. The United 
States has asked the manufacturer of the Predator UAV to 
develop a version for export to non-NATO allies that cannot be 
armed or modified to exceed MTCR guidelines. Is this a 
realistic request? Is it possible to construct a UAV so that it 
can never be modified to carry a weapon? Mr. Gormley or Mr. 
Bolkcom?
    Mr. Gormley. I will start, Mr. Chairman. I think Mr. Van 
Diepen addressed the issue of the difficulty and I think the 
major issue that he pointed out that struck me as particularly 
relevant is every missile that is transferred has to be dealt 
with on a case-by-case basis because every missile is 
fundamentally unique from an engineering standpoint.
    That said, I would also argue that it is technically 
difficult to make these kind of changes. There are particular 
safeguards that one could employ, even the notion of trap 
doors, devices that the recipient is simply not aware of, all 
of which raise difficult issues in the negotiation to purchase 
these missiles because, obviously, the recipient nation does 
not want anything that might inhibit its potential use, even to 
include modifying it in violation of whatever end use 
assurances we might place on that subsequent modification.
    But there is a larger issue that I think is important 
because this issue came up in what has been the most 
embarrassing cruise missile transfer, that is a stealthy cruise 
missile, the Apache or Black Shahine. That was a decision made 
by both the French and the U.K. governments to transfer what is 
decidedly a Category I missile, but also a stealthy one, 
raising other concerns about the potential defense against such 
a missile. They decided to do it nonetheless and they brought 
up this issue of applying safeguards.
    But the issue is one that becomes difficult in terms of 
establishing a precedent. Once you establish a precedent that 
you can come up with all these fixes, then it creates a major 
incentive on the part of other MTCR members to practice the 
same behavior, to come up with these technical fixes that allow 
for these transfers to occur, and that is the ultimate problem 
that I think the case of the Black Shahine transfer to the UAE 
creates. That is, it creates an incentive for Russia, and, 
indeed, MTCR adherent states like China, to make decisions that 
might be inconsistent with the wishes of all the MTCR member 
states.
    Senator Akaka. Would you want to comment on that, Mr. 
Bolkcom?
    Mr. Bolkcom. Yes, sir. I agree with Mr. Gormley. It really 
needs to be looked at on a case-by-case basis, how feasible is 
it to change a missile or a UAV so that it cannot be tampered 
with. But generally speaking, I think that, yes, I think that 
one can envision for most cruise missiles and UAVs a means or 
methods of making them tamper-resistant. The question is, would 
the customer want it? Would you have to go to such a degree 
that the missile would be so dumbed-down that it would not 
offer them the sort of capabilities they want? And the answer 
is, probably.
    I also agree with Mr. Gormley that there is a larger issue 
with the Predator's sale or those sorts of sales and the norms 
they establish, and the issue for me is one of U.S. 
credibility. We have talked a lot about export controls and 
supply side efforts to quarantine the spread of this 
technology, but we need to recognize that there is a flip side 
to that coin and that is reducing the desire of importers to 
try to give them disincentives.
    In countries like China, Russia, France, they look at us 
and I think they can oftentimes say that we are inconsistent or 
we are talking out of both sides of our mouths when we, the 
United States, are a large exporter of cruise missiles. The 
Harpoon, for instance, is a very successful export product. 
And, of course, the United States is one of the leading users 
of UAVs and cruise missiles.
    So when we think about what we want to do in terms of 
export controls and stopping the spread, we also have to look 
at how others may perceive us and our exports.
    Senator Akaka. Let me ask you, Mr. Bolkcom, whether you 
agree with this assessment: The National Intelligence Estimate 
on Future Missile Threats estimated that one or two dozen 
countries will possess a land attack cruise missile capability 
by the year 2015 via indigenous development, acquisition, or 
modification of other systems, such as anti-ship cruise 
missiles or UAVs. Do you agree with this assessment? What are 
the most important factors affecting cruise missile 
acquisition?
    Mr. Bolkcom. Well, sir, the intelligence community 
certainly has a lot of resources that I do not have access to 
and I tried to focus on capabilities. I have looked at the 
paths through which countries have historically acquired cruise 
missiles and just focused on those sort of capabilities. So in 
terms of intent or countries' desires, I cannot really say. But 
looking at the capabilities that I see today, I think that sort 
of estimate is entirely plausible. It is entirely plausible.
    Senator Akaka. Mr. Bolkcom, the last National Intelligence 
Estimate on Future Missile Threats does not include UAVs. 
During our hearing on the subject in March, National 
Intelligence Officer Robert Walpole told this panel that UAVs 
will be included in future threat assessments. In your 
testimony, you described in detail the challenges of assessing 
UAV capabilities. Do you believe that a threat assessment can 
be done?
    Mr. Bolkcom. Sir, I do not know enough about threat 
assessments to know if they are feasible on UAVs, but I can 
tell you that other experts have made recommendations for how 
to improve our capabilities in forecasting and providing good 
intelligence. I do not know if these sort of recommendations 
have been acted upon, but I will share one with you.
    The Defense Science Board, which you mentioned, and a body 
with which I am familiar, recommended 8 years ago that the 
intelligence community should not only put a higher emphasis on 
cruise missile and UAV proliferation, but they made 
recommendations on how they should put a greater emphasis on 
this problem and one approach they recommended was what they 
call a ``skunk's work'' or ``red teaming'' approach.
    This approach is one where if you are unsure if a country 
has the ability to manufacture UAVs or cruise missiles or 
weaponize them, what you do is you take a bunch of people, 
oftentimes military officers with the sort of expertise you 
find in the country in question: Engineering, aeronautical 
engineering, computer science, and what not, and you isolate 
these people with the sort of technologies and processes you 
believe that country possesses and see what they can do. It is 
called a red team or a skunk's work approach. It is a very 
effective way of finding out empirically whether these sort of 
capabilities could be kluged into a cruise missile or UAV.
    To my knowledge, the intelligence community has not taken 
on this approach. That does not mean they have not, but I do 
not know of any such efforts.
    Senator Akaka. Mr. Gormley, would you want to comment?
    Mr. Gormley. Yes, I would, Chairman. On the 12 to 24 
nations by 2015, that is really, I mean, it is like hoping that 
you can pull a rabbit out of a hat and be relatively close and 
that is, I trust, a product of, I would hope, rigorous threat 
assessment and looking at where capacities exist.
    I would only footnote it by saying that given the 
pronounced effectiveness and thereby the interest that is 
driven by it in Predator's use in Afghanistan as a weapons 
delivery platform, it strikes me that the 40 nations that now 
produce UAVs, half of which are not MTCR members, might be 
inclined to put a weapon on their existing UAVs. This isn't 
easy, but by 2015, it would seem to me that the potential for 
that is certainly there.
    We have looked very systematically in a study sponsored by 
the government at a body of about just under 700 UAVs produced 
by a large number of countries and found that 80 percent of 
them, nearly 80 percent of them, were capable of meeting the 
Category II provisions of the MTCR. That is, they could fly 
with a small payload out to and beyond 300 kilometers. In fact, 
roughly about 20 percent of them could fly as far as 1,000 
kilometers. So there is significant capability in today's UAV 
infrastructure.
    All that said, you asked a question about factors affecting 
the acquisition of cruise missiles and UAVs. I would add a 
cautionary note. There is a tendency to just look at the 
technology and look at popular interest in these weapons 
platforms, but if you look at a country like Iran and examine 
where it spends its resources, it is still buying tanks, 
planes, and ships. So it raises the question of how much can 
they afford and how do they trade off decisions to buy cruise 
missiles for land attack missions versus ballistic missiles in 
the context of limited resources when they still intend to 
flesh out a conventional army with tanks, ships, and airplanes.
    So it is a difficult proposition to think out to 2015. Just 
in terms of technology, you can come up with some relatively 
straightforward answers, but you have to set it in a broader, 
richer context before you can make careful predictions on the 
future.
    Senator Akaka. Mr. Gormley, the Missile Technology Control 
Regime demonstrates how cruise missiles are often an 
afterthought to ballistic missiles. But are cruise missile 
performance and technology sufficiently different from 
ballistic missiles to warrant a new international agreement 
solely for cruise missiles and UAVs?
    Mr. Gormley. No. The answer is definitely not. I am a very 
strong adherent of not allowing the best to become the enemy of 
the good.
    Many people in various positions, high and low, criticize 
the Missile Technology Control Regime for not being an adequate 
tool in stemming the spread of missiles generally, ballistic 
and cruise. I would look at the glass as half filled and 
suggest that with modest changes and reforms to the MTCR, we 
can do a reasonably good job at stemming the tide of the most 
sophisticated cruise missiles and UAVs getting into the hands 
of our potential adversaries.
    The concern I have about a new regime of any sort is the 
time it takes to reach a consensus among the nations that would 
participate in it, and if nations take their eye off the prize, 
which now is reform, to bring the MTCR up to the capacity to 
deal more effectively with cruise missiles and UAVs, then I 
think they take their eyes off that prize at the risk of 
allowing the continuing globalization of dual-use technologies 
to create the condition for cruise missile and UAV 
proliferation. So they ought to focus on the existing 
mechanism, reform it as best they can, and move out strongly to 
cope with the emergence of this threat.
    Senator Akaka. Thank you.
    Mr. Bolkcom, in your testimony, you discuss the difficulty 
of identifying and distinguishing between cruise missiles and 
legitimate small aircraft. How effective would an advanced and 
universal combat identification system be for improving the 
rapid and accurate distinction between the two?
    Mr. Bolkcom. Sir, from a defense perspective, it is 
identifying what that blip on the radar screen is very 
important. We have very high standards in terms of trying to 
avoid friendly fire, trying not to shoot down our allies or 
non-combatants, and that sort of high standard can work against 
us in terms of cruise missile defense.
    In terms of a specific answer to your question about 
improved or universal IFF systems, I have not thought about 
that specific solution much, but I would point out that there 
are some technologies that are coming online that will be very 
helpful, like Link-16, which is a secure, jam-resistant 
communications link that not only the United States but our 
NATO allies will also use, and that is not an IFF system in and 
of itself, but it will help provide an IFF function that should 
be very helpful in identifying friend from foe from neutral on 
the battlefield.
    Senator Akaka. Mr. Gormley, do you believe such a system 
would be acceptable to MTCR?
    Mr. Gormley. I think we may be talking about two separate 
issues: Identification friend/foe in a military context, and 
some mechanism that would be used in an export control context.
    The former that Mr. Bolkcom responded to is the requirement 
to have some way of distinguishing friendly from enemy assets 
on your air defense radars and that is an exceptionally 
difficult technical challenge. We have been trying to cope with 
that in a variety of different ways.
    Ultimately, the best solution is to have high-quality 
radars that provide you not only with the ability to detect an 
incoming object at long range, but high-quality fire control 
quality data that gives you the confidence that you can fire on 
something because you understand it to be a non-friendly asset. 
That is a technology issue that I know the U.S. Department of 
Defense is working on, but a very difficult challenge, indeed.
    If I understand your question to apply to an export control 
regime, that would almost suggest something along the lines of 
a safeguards regime that would essentially allow you to 
distinguish whether a transferred missile is being used in ways 
inconsistent with the end use assurances that you have 
negotiated with the recipient nation. And as I mentioned 
before, end use safeguards can be very technically 
sophisticated and that in and of itself makes them problematic 
because every member of the MTCR does not have an equal level 
of technology to build into their transfers that might occur.
    So does that imply that the United States and the other 
lead industrial G-7 nations would provide safeguards technology 
to all the other non-G-7 members of the MTCR? I think that 
would raise an export control issue in and of itself. So I 
think it is very difficult to imagine a regime that would work 
in a robust way.
    Senator Akaka. I want to thank both of you and all 
witnesses for your testimony and the time that you took to be 
here. The United States will unilaterally withdraw from the 
Anti-Ballistic Missile Treaty in 2 days. In our race to field a 
missile defense system, we should heed the lessons of ballistic 
missiles. Short- and medium-range ballistic missiles are 
widespread and already pose a significant threat overseas to 
U.S. interests, military forces, and our allies. Cruise 
missiles are far fewer in number and our potential adversaries 
are said to own cruise missiles that are easy to track and have 
low accuracy. But this can change rapidly, especially with 
foreign assistance.
    We must not lose this opportunity to stop the spread of 
cruise missiles. It will always be more effective to prevent a 
state from acquiring cruise missiles than to build a system to 
defend against them.
    It is clear that the administration recognizes the 
advantages that cruise missiles and UAVs give us in military 
operations. Since the beginning of Operation Enduring Freedom, 
I have seen one press report after another describing the new 
and improved uses for UAVs. In fact, the Air Force plans to 
spend about $1.5 billion to speed the initial operational 
capability of combat UAVs over the next 5 years.
    However, as we broaden our uses of UAVs, we must assume 
that our adversaries are planning to do the same. The United 
States should set an example. We should not rush into easing 
restrictions on UAV sales to non-NATO members. We need to 
ensure that we have an end user verification system that can 
track where this technology goes and who has access to it once 
it leaves U.S. borders.
    The administration should put pressure on our MTCR partners 
to abide by the guidelines on cruise missile exports. The 
administration needs to lead the debate on how the MTCR will 
address UAVs so that an agreement can be reached. We must not 
forget and we must not let our allies forget that once 
released, technological genies cannot be returned to their 
bottles.
    Gentlemen, we have no further questions at this time. 
However, the record will remain open for questions for our 
witnesses and for further statements from our colleagues. We 
appreciate the timely response to any questions that are sent 
to you.
    I would like to express my appreciation to all our 
witnesses for their time and for sharing their insights with 
us. Thank you again very much.
    The hearing is adjourned.
    [Whereupon, at 11:22 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 80605.001

[GRAPHIC] [TIFF OMITTED] 80605.002

[GRAPHIC] [TIFF OMITTED] 80605.003

[GRAPHIC] [TIFF OMITTED] 80605.004

[GRAPHIC] [TIFF OMITTED] 80605.005

[GRAPHIC] [TIFF OMITTED] 80605.006

[GRAPHIC] [TIFF OMITTED] 80605.007

[GRAPHIC] [TIFF OMITTED] 80605.008

[GRAPHIC] [TIFF OMITTED] 80605.009

[GRAPHIC] [TIFF OMITTED] 80605.010

[GRAPHIC] [TIFF OMITTED] 80605.011

[GRAPHIC] [TIFF OMITTED] 80605.012

[GRAPHIC] [TIFF OMITTED] 80605.013

[GRAPHIC] [TIFF OMITTED] 80605.014

[GRAPHIC] [TIFF OMITTED] 80605.015

[GRAPHIC] [TIFF OMITTED] 80605.016

[GRAPHIC] [TIFF OMITTED] 80605.017

[GRAPHIC] [TIFF OMITTED] 80605.018

[GRAPHIC] [TIFF OMITTED] 80605.019

[GRAPHIC] [TIFF OMITTED] 80605.020

[GRAPHIC] [TIFF OMITTED] 80605.021

[GRAPHIC] [TIFF OMITTED] 80605.022

[GRAPHIC] [TIFF OMITTED] 80605.023

[GRAPHIC] [TIFF OMITTED] 80605.024

[GRAPHIC] [TIFF OMITTED] 80605.025

[GRAPHIC] [TIFF OMITTED] 80605.026

[GRAPHIC] [TIFF OMITTED] 80605.027

[GRAPHIC] [TIFF OMITTED] 80605.028

[GRAPHIC] [TIFF OMITTED] 80605.029

[GRAPHIC] [TIFF OMITTED] 80605.030

[GRAPHIC] [TIFF OMITTED] 80605.031

[GRAPHIC] [TIFF OMITTED] 80605.032

[GRAPHIC] [TIFF OMITTED] 80605.033

[GRAPHIC] [TIFF OMITTED] 80605.034

[GRAPHIC] [TIFF OMITTED] 80605.035

[GRAPHIC] [TIFF OMITTED] 80605.036

[GRAPHIC] [TIFF OMITTED] 80605.037

[GRAPHIC] [TIFF OMITTED] 80605.038

[GRAPHIC] [TIFF OMITTED] 80605.039

[GRAPHIC] [TIFF OMITTED] 80605.040

[GRAPHIC] [TIFF OMITTED] 80605.041

[GRAPHIC] [TIFF OMITTED] 80605.042

[GRAPHIC] [TIFF OMITTED] 80605.043

[GRAPHIC] [TIFF OMITTED] 80605.044

[GRAPHIC] [TIFF OMITTED] 80605.045

[GRAPHIC] [TIFF OMITTED] 80605.046

[GRAPHIC] [TIFF OMITTED] 80605.047

[GRAPHIC] [TIFF OMITTED] 80605.048

[GRAPHIC] [TIFF OMITTED] 80605.049

[GRAPHIC] [TIFF OMITTED] 80605.050

[GRAPHIC] [TIFF OMITTED] 80605.051

[GRAPHIC] [TIFF OMITTED] 80605.052

[GRAPHIC] [TIFF OMITTED] 80605.053

                                   - 

</pre></body></html>
